TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Although the Large and Mid-Size Business
                Division’s Currency Initiative Was Considered
                 a Success, Improvements Could Be Made in
                               Future Initiatives



                                      September 26, 2008

                              Reference Number: 2008-30-181




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 26, 2008


 MEMORANDUM FOR COMMISSIONER, LARGE AND MID-SIZE BUSINESS DIVISION

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Although the Large and Mid-Size Business
                                Division’s Currency Initiative Was Considered a Success,
                                Improvements Could Be Made in Future Initiatives
                                (Audit # 200730IE042)

 This report presents the results of our review of the Fiscal Year (FY) 2004 Currency1 and Cycle
 Time2 Improvement Initiative (currency initiative). The overall objective of this review was to
 evaluate whether the design and implementation of the currency initiative allowed the Internal
 Revenue Service (IRS) Large and Mid-Size Business (LMSB) Division to more efficiently close
 examinations while effectively addressing mandatory and high-risk material issues. This audit
 was included in the Treasury Inspector General for Tax Administration FY 2008 Annual Audit
 Plan.

 Impact on the Taxpayer
 The IRS considers reducing the time, costs, and burdens of large corporate examinations to be
 extremely important. On October 9, 2003, the Commissioner, LMSB Division, issued a
 memorandum3 to LMSB Division employees stating that one of the goals of the currency
 initiative was to “realize significant gains in cycle time, currency, return closures, rates, and audit
 coverage performance.” Although the LMSB Division’s examination performance statistics
 improved in the years following the currency initiative, the initiative also received adverse media
 coverage alleging that significant tax issues could have been overlooked in examinations that


 1
   The term “currency” in the title of the LMSB Division initiative referred to the goal of closing all open corporate
 examinations by certain deadlines, unless an exception existed.
 2
   See Appendix IV for a Glossary of Terms.
 3
   LMSB FY 2004 Special Initiative to Improve Business Results.
                 Although the Large and Mid-Size Business Division’s Currency
                             Initiative Was Considered a Success,
                      Improvements Could Be Made in Future Initiatives


Without access to the financial records for the 30 cases we reviewed, we cannot determine
whether any of the corporations avoided paying additional taxes that might have been owed.
However, we do know that, in retrospect, the LMSB Division could have more closely followed
best practices and possibly addressed the challenges it experienced during the currency initiative.

Recommendation
The Commissioner, LMSB Division, should ensure that a standardized framework for planning
and carrying out initiatives of this magnitude is incorporated into the official LMSB Division
policies and procedures and includes steps for fully assessing implementation barriers and
detailed pilot testing.

Response
In their response to the report, IRS management agreed with the recommendation and outlined
the corrective actions the IRS would take. The LMSB Division will consider use of a
standardized framework with detailed steps for managers to follow (e.g., the Government
Accountability Office 20-step framework), including steps to fully assess implementation
barriers and a detailed pilot testing, for the design and implementation of future major process
improvement initiatives. A guidance memorandum will be issued to LMSB Division directors
responsible for review and approval of the design and implementation of major process
improvement initiatives in the LMSB Division. Management’s complete response to the draft
report is included as Appendix VI.

Office of Audit Comment
Although the IRS agreed with our findings and recommendation, it did not fully commit to using
a standardized framework with detailed steps for the design and implementation of future major
process improvement initiatives. While a guidance memorandum to LMSB Division directors
might be helpful, we believe that without a standardized framework in place for future initiatives,
the IRS remains at risk of experiencing challenges similar to those it faced with the FY 2004
currency initiative.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-8510.




                                                                                                   3
                       Although the Large and Mid-Size Business Division’s Currency
                                   Initiative Was Considered a Success,
                            Improvements Could Be Made In Future Initiatives




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Large and Mid-Size Business Division’s Examination
          Performance Statistics Improved Following the Currency and
          Cycle Time Improvement Initiative..............................................................Page 3
          Adverse Reaction to the Currency and Cycle Time Improvement
          Initiative Was Significant .............................................................................Page 5
                    Recommendation 1:..........................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Glossary of Terms................................................................Page 15
          Appendix V – Case Analysis Worksheet......................................................Page 16
          Appendix VI – Management’s Response to the Draft Report ......................Page 17
       Although the Large and Mid-Size Business Division’s Currency
                   Initiative Was Considered a Success,
            Improvements Could Be Made In Future Initiatives




                      Abbreviations

CIC             Coordinated Industry Case
FY              Fiscal Year
GAO             Government Accountability Office
IC              Industry Case
IRS             Internal Revenue Service
LMSB            Large and Mid-Size Business
                     Although the Large and Mid-Size Business Division’s Currency
                                 Initiative Was Considered a Success,
                          Improvements Could Be Made In Future Initiatives




                                              Background

The Internal Revenue Service (IRS) Large and Mid-Size Business (LMSB) Division has the
formidable task of examining the nation’s largest corporations. To do this, the LMSB Division
divides the corporations into two segments. A few thousand of the largest corporations are
classified as Coordinated Industry Cases (CIC),1 while the vast majority of the remaining large
corporations are referred to as Industry Cases (IC). Unlike IC examinations, CIC examinations
are conducted using a team of IRS examiners. Although CIC and IC examinations account for
more than 60 percent of the recommended additional taxes from all IRS examinations, the length
of time taken to complete the examinations has been an ongoing concern of both the IRS and
stakeholders.
To address this concern, the LMSB Division has
implemented numerous initiatives to improve               The Currency and Cycle Time
                        2                                   Improvement Initiative was
examination currency and reduce cycle time. Among
                                                           intended to allow the LMSB
others, the initiatives include the Pre-Filing Agreement  Division to “realize significant
program, the Industry Issue Resolution program, the       gains in cycle time, currency,
Limited Issue Focused Examination process, the           return closures, rates, and audit
Compliance Assurance Process, and the LMSB                   coverage performance.”
Workload Identification System. In May 2003, the issue
of timely audits was a topic of discussion in
Congressional testimony by the IRS Commissioner, who stated that:
      [T]he IRS must bring the same focus and energy to improving enforcement’s business
      processes as we are to improving the service side of the IRS. It’s unacceptable that a
      corporate audit takes five years on average from the date of filing to complete.
On October 9, 2003, the Commissioner, LMSB Division, issued a memorandum3 to LMSB
Division employees announcing the Fiscal Year (FY) 2004 Currency and Cycle Time
Improvement Initiative (currency initiative). One of the goals of the currency initiative was to
“realize significant gains in cycle time, currency, return closures, rates, and audit coverage
performance.” The specific measures taken to achieve the new currency goals were for team
managers to conduct a “vigorous risk analysis” of all open IC and CIC examinations by
November 14, 2003. The risk analysis was intended to identify opportunities to close aged
inventory and replace it with more current work. Unless an exception existed, all open IC
examinations were to be closed by April 30, 2004, and all open CIC examinations were to be

1
  See Appendix IV for a Glossary of Terms.
2
  The term “currency” in the title of the LMSB Division initiative referred to the goal of closing all open corporate
examinations by certain deadlines, unless an exception existed.
3
  LMSB FY 2004 Special Initiative to Improve Business Results.
                                                                                                               Page 1
                 Although the Large and Mid-Size Business Division’s Currency
                             Initiative Was Considered a Success,
                      Improvements Could Be Made In Future Initiatives


closed by March 31, 2005. The exceptions included examinations involving issues such as
abusive tax shelters, fraud, high-risk material issues, high-priority work (such as coordinated
issues and emerging issues), and noncompliant taxpayers.
This review was performed at the LMSB Division Headquarters in Washington, D.C., and IRS
offices in the Los Angeles, California; Chicago, Illinois; and New York, New York, metropolitan
areas during the period October 2007 through May 2008. We conducted this performance audit
in accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 2
                 Although the Large and Mid-Size Business Division’s Currency
                             Initiative Was Considered a Success,
                      Improvements Could Be Made In Future Initiatives




                                Results of Review

The Large and Mid-Size Business Division’s Examination
Performance Statistics Improved Following the Currency and
Cycle Time Improvement Initiative
The IRS considers reducing the time, costs, and burdens of large corporate examinations to be
extremely important, and the LMSB Division reflected this priority in the emphasis it gave to the
currency initiative. Management at the national and local levels coordinated efforts to assist
examiners with closing in-process examinations by the scheduled completion dates beginning in
April 2004.
Prior to implementing the initiative, the LMSB Division developed and distributed detailed
guidelines and examination techniques to personnel throughout the Division. While the
guidelines imposed strict rules and specific dates for closing examinations, certain cases–such as
those involving abusive tax shelters–were excluded from the initiative. Importantly, the
exclusions recognized the need to continue ensuring that examinations with high-risk compliance
tax issues receive the requisite amount of time and attention. Once the initiative was
implemented, the Division formed management teams that conducted onsite visitations at various
geographically dispersed offices. The visitations were designed to monitor progress, identify and
address potential problems, and share best practices.
Due to various other ongoing initiatives that the LMSB Division has cited as affecting the
outcomes of examinations, such as the Pre-Filing Agreement program, we were unable to isolate
the impact from the currency initiative. However, LMSB Division statistics show that the
average length of time for examinations is decreasing, examination coverage is increasing, and
the amounts of recommended assessments from examiners–on both an hourly and a return basis–
are trending up.
The currency initiative focused on months in group (the average number of months required by
an examination group to close an examination of a return) as a measure of examination
productivity. Because this measure reflects only the time spent on the examination of a return,
and excludes the time spent processing the return after receipt and the time the return was in
inventory awaiting assignment to an examiner, it should more directly reflect improvements in
productivity at the examination team level. As shown in Figure 1, the months in group
measurements for both IC and CIC examinations declined substantially for the fiscal years in
which open examinations were required to be closed under the currency initiative (FY 2004 for
open IC examinations; FY 2005 for open CIC examinations) and have remained below their
pre-currency initiative levels.


                                                                                           Page 3
                  Although the Large and Mid-Size Business Division’s Currency
                              Initiative Was Considered a Success,
                       Improvements Could Be Made In Future Initiatives


                 Figure 1: Months in Group for FYs 2003 Through 2007

    Average Months in Group for
                                          FY 2003      FY 2004     FY 2005        FY 2006      FY 2007
   Cases With Examinations Started
           CIC Examinations                 36.97        32.68       23.90          24.20        21.80

           IC Examinations                  16.06        13.50       10.20          11.00        11.30

Source: LMSB Division Balanced Measures Scorecards for FYs 2003 through 2007.

As shown in Figure 1, when the currency initiative was announced at the beginning of FY 2004,
the average months in group for IC examinations was just over 16 months. At the end of
FY 2004, after eligible open IC examinations were required to be closed, the months in group
had declined to 13.5 months. The average months in group for IC examinations declined further
in FY 2005 but rose slightly in recent years.
For CIC examinations, the average months in group declined from 36.97 months at the end of
FY 2003 to 32.68 months at the end of FY 2004. At the end of FY 2005, after open CIC
examinations were required to be closed under the currency initiative, the average months in
group for CIC examinations had declined substantially to 23.9 months. The average months in
group for CIC examinations rose slightly in FY 2006 but declined again in FY 2007.
The broadest measure of the length of an examination is case cycle time, which measures the
number of months between receipt of the tax return and closure of the examination. Since
FY 2005, the LMSB Division has not tracked case cycle time separately for CIC and IC
examinations. Instead, it reports a combined number for all closed examinations. As shown in
Figure 2, overall combined case cycle time has declined in each of the past 5 fiscal years.
                 Figure 2: Case Cycle Time for FYs 2003 Through 2007

          Case Cycle Time
                                          FY 2003     FY 2004    FY 2005        FY 2006     FY 2007
    (in months, 12-month average)
 Combined (All Closed Examinations)         42.4        42.3        40.4          34.3        32.4

Source: LMSB Division Balanced Measures Scorecards for FYs 2003 through 2007.

Months in group and cycle time are not the only measures of examination productivity. Several
other measures indicate that the LMSB Division has increased the efficiency of its examinations
since the currency initiative. As shown in Figure 3, the numbers of closed returns, the average
assessments per closed return, and the assessments per examiner hour for the corporate returns
that form the majority of the LMSB Division’s workload have generally increased in the fiscal
years since the currency initiative.




                                                                                                      Page 4
                      Although the Large and Mid-Size Business Division’s Currency
                                  Initiative Was Considered a Success,
                           Improvements Could Be Made In Future Initiatives


                    Figure 3: Numbers of Closed Returns and Average
                 Assessments per Closed Return for FYs 2003 Through 2007

                                                 FY 2003       FY 2004       FY 2005        FY 2006        FY 2007
              CIC Examinations
          Number of Closed Returns                 2,225         2,586         2,920          2,094          1,524

    Average Assessment per Closed Return         $ 5,372,592   $ 5,300,580   $ 9,745,034   $ 10,464,978   $ 14,071,843

        Assessment per Examiner Hour               $ 3,486       $ 4,202       $ 7,342       $ 6,833        $ 8,638



               IC Examinations
          Number of Closed Returns                 4,324         5,818         5,952          6,570          6,218

    Average Assessment per Closed Return         $ 251,092     $ 376,751     $ 497,748      $ 700,644      $ 522,735

        Assessment per Examiner Hour               $ 981         $ 1,577       $ 2,183       $ 3,265        $ 2,162

Source: Our analysis of closed examination data from the IRS Audit Information Management System for
FYs 2003 through 2007.

Despite the successes achieved by the LMSB Division, we have observations for management to
consider in developing and implementing initiatives of this size in the future. Our observations
focus on steps that could be taken to help avoid resistance to the changes introduced by process
improvement initiatives.

Adverse Reaction to the Currency and Cycle Time Improvement
Initiative Was Significant
Although the LMSB Division reported that the currency initiative was a success, there are
opportunities for improvement. Some LMSB Division personnel expressed resistance to the
changes introduced by the initiative, which generated adverse publicity for the initiative. As
reflected in the following excerpts from an article in The New York Times,4 some examiners
opposed the changes because they believed that managers were pressuring them to prematurely
close examinations.
         One agent, who said he had worked on some of the largest I.R.S. cases, said he was
         admonished for resisting management pressure to close a case in which his team believed
         that vast sums were due. The agent said his team was forced to sign off on a closing
         agreement allowing the company to permanently underpay its taxes by hundreds of
         millions of dollars a year.

4
    David Cay Johnston, “I.R.S. Agents Feel Pressed to End Cases,” The New York Times, March 20, 2007.
                                                                                                           Page 5
                       Although the Large and Mid-Size Business Division’s Currency
                                   Initiative Was Considered a Success,
                            Improvements Could Be Made In Future Initiatives


consider critical–fully assessing implementation barriers and detailed pilot testing–the steps were
either completely or partially followed by LMSB Division personnel.
  Figure 4: Assessment of FY 2004 Currency Initiative Using Key Best Practices

       Best Practices Advocated by the GAO                    Included                  Comments
                                                            in Initiative

 Identify productivity baseline                                  z
 Include complexity and quality in productivity measures         z
 Compare productivity to internal and external benchmarks        z
 Map process                                                     z
 Identify causes of poor performance                             z
 Measure gap between current and desired productivity            z
 Understand best practices of others
 Analyze alternatives                                            z
 Design new process to close productivity gap                    z
 Obtain executive support                                        z
 Assess barriers to implementing changed process                 {          No evidence of assessment.
 Assess resource needs and availability                          z
 Conduct pilot tests                                                        Evidence of limited pilot testing.
 Adjust process based on pilot                                   {          No evidence of adjustments.
 Define roles and responsibilities                               z
 Establish employee expectations                                 z
 Monitor and evaluate new process
 Establish a change management strategy
 Establish a transition team
 Develop workforce training plans                                z

                                          z Yes { No          Partial
Source: Our analysis of GAO and LMSB Division data.

According to the GAO, implementation barriers are obstacles that need to be considered and
have strategies designed to overcome them during the planning stage of improvement initiatives.
Barriers include employee resistance, collective bargaining agreements, and funding constraints.
While the LMSB Division did not have to deal with funding constraints, it did experience
employee resistance, as discussed earlier. The amount of resistance to the change was likely

                                                                                                        Page 8
                   Although the Large and Mid-Size Business Division’s Currency
                               Initiative Was Considered a Success,
                        Improvements Could Be Made In Future Initiatives


exacerbated by the view that there was no employee input on the design of the currency
initiative, which was expressed by examiners in meetings with management after the initiative
was implemented.
With regard to pilot testing, we have reported previously that the IRS has successfully designed
and used pilot tests to evaluate the soundness of process changes in actual practice.8 In addition,
a well-designed pilot test will help secure the support of employee unions and identify trouble
spots to enable necessary adjustments before full implementation. The documentation the
LMSB Division provided to us during discussions on August 13, 2008, showed that the pilot
testing was limited to managers and largely focused on the number of examinations that could be
closed during the initiative and whether the instructions for the initiative were clear.
To its credit, the LMSB Division has implemented a standardized risk analysis process that
examiners are currently using in examinations. While an evaluation of how well examiners are
currently using the process was beyond the scope of this review, the process is likely a
significant contributing factor to the improvement reflected in the LMSB Division’s performance
statistics.

Recommendation
Recommendation 1: The Commissioner, LMSB Division, should ensure that a standardized
framework for planning and carrying out initiatives of this magnitude is incorporated into the
official LMSB Division policies and procedures and includes steps for fully assessing
implementation barriers and detailed pilot testing. This will help ensure that an established
framework is readily available and in place that defines in detail the activities personnel will
need to complete when undertaking initiatives.
        Management’s Response: IRS management agreed with the recommendation. The
        LMSB Division will consider use of a standardized framework with detailed steps for
        managers to follow (e.g., the GAO 20-step framework), including steps to fully assess
        implementation barriers and a detailed pilot testing, for the design and implementation of
        future major process improvement initiatives. A guidance memorandum will be issued to
        LMSB Division directors responsible for review and approval of the design and
        implementation of major process improvement initiatives in the LMSB Division.
        Office of Audit Comment: Although the IRS agreed with our findings and
        recommendation, it did not fully commit to using a standardized framework with detailed


8
 The Fast Track Dispute Resolution Pilot Program Was Successful, but Some Challenges Remain (Reference
Number 2004-30-119, dated July 2004).




                                                                                                     Page 9
         Although the Large and Mid-Size Business Division’s Currency
                     Initiative Was Considered a Success,
              Improvements Could Be Made In Future Initiatives


steps for the design and implementation of future major process improvement initiatives.
While a guidance memorandum to LMSB Division directors might be helpful, we believe
that without a standardized framework in place for future initiatives, the IRS remains at
risk of experiencing challenges similar to those it faced with the FY 2004 currency
initiative.




                                                                                 Page 10
                     Although the Large and Mid-Size Business Division’s Currency
                                 Initiative Was Considered a Success,
                          Improvements Could Be Made In Future Initiatives


                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate whether the design and implementation of
the FY 2004 Currency1 and Cycle Time2 Improvement Initiative (currency initiative) allowed the
LMSB Division to more efficiently close examinations while effectively addressing mandatory
and high-risk material issues. During the review, we relied on IRS databases. Although we did
not conduct audit tests to determine the accuracy and completeness of the information in any of
the databases, we checked the reliability of the information against source documents. Our
checks are described below and did not identify any material errors in the information used from
the databases. To meet our objective, we:
I.       Identified the strengths and weaknesses in planning, developing, and implementing the
         currency initiative by evaluating the extent to which the LMSB Division followed
         techniques consistent with those recommended by the GAO for improving business
         processes.
II.      Evaluated all documentation from the e-talk forum of the Commissioner,
         LMSB Division, to identify specific concerns with the initiative and/or its aftermath.
III.     Developed a “reviewers” guide and selected a judgmental sample3 of 24 of the 12,604 IC
         examinations and 6 of the 4,889 CIC examinations meeting the criteria below and
         determined whether the initiative contributed to dropping mandatory and high-risk issues,
         bypassing required examination procedures, and/or closing examinations prematurely.
         A. Disposition Date between October 1, 2003, and September 30, 2004, (for IC
            examinations).
         B. Disposal Code 01 through 03.
         C. Activity Code 219 through 225.
         D. Total Cycle Days greater than 1,460 for IC examinations or Total Cycle Days greater
            than 2,400 for CIC examinations.
IV.      Developed a standard questionnaire (script) for interviewing the managers about the
         examinations reviewed to collect additional information about how well the initiative was
         planned, developed, and implemented, as well as whether the managers believed that it

1
  The term “currency” in the title of the LMSB Division initiative referred to the goal of closing all open corporate
examinations by certain deadlines, unless an exception existed.
2
  See Appendix IV for a Glossary of Terms.
3
  Judgmental sampling techniques were used for all samples to conserve time and resources.
                                                                                                             Page 11
                    Although the Large and Mid-Size Business Division’s Currency
                                Initiative Was Considered a Success,
                         Improvements Could Be Made In Future Initiatives


        might have adversely affected examination results and/or provided benefits, such as
        reducing taxpayer burden.
V.      Evaluated all LMSB Division enhancement visitation reports, including the consolidated
        quarterly and annual reports, to determine whether IRS management officials might have
        exerted undue pressure to drop issues and/or close examinations prematurely.
VI.     Determined the potential impact the currency initiative had on reducing the length of
        examinations, generating higher degrees of productivity, and minimizing taxpayer
        burden.
        A. Analyzed closed examination data from the Audit Information Management System
           and compared IC and CIC examination results before and after the initiative to
           determine whether the initiative reduced cycle time and increased dollars per hour
           and dollars per return.
        B. Evaluated LMSB Division performance assessments such as the Business
           Performance Review and the quarterly LMSB Balanced Measures Performance
           Reports and assessed the impact of the initiative.
        C. Used the Audit Information Management System to compare and contrast the LMSB
           Workload Identification System that was introduced in 2004 with the initiative to
           determine which process had the most impact on cycle time.
VII.    For reliability of data considerations, reconciled all Audit Information Management
        System analysis to Examination Table 37 and/or IRS Data Books4 to ensure that the data
        compared with IRS official records.




4
  The Data Book is published annually by the IRS and contains statistical tables and organizational information on a
fiscal year basis.
                                                                                                           Page 12
                Although the Large and Mid-Size Business Division’s Currency
                            Initiative Was Considered a Success,
                     Improvements Could Be Made In Future Initiatives


                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Frank Dunleavy, Director
Robert Jenness, Audit Manager
Earl Burney, Senior Auditor
Lawrence Smith, Senior Auditor
William Tran, Senior Auditor
Debra Mason, Auditor
Ali Vaezazizi, Auditor




                                                                                      Page 13
                Although the Large and Mid-Size Business Division’s Currency
                            Initiative Was Considered a Success,
                     Improvements Could Be Made In Future Initiatives


                                                                              Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner (Operations), Large and Mid-Size Business Division SE:LM
Director, Planning, Quality, Analysis, and Support, Large and Mid-Size Business Division
SE:LM:PQAS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Large and Mid-Size Business Division SE:LM




                                                                                       Page 14
                   Although the Large and Mid-Size Business Division’s Currency
                               Initiative Was Considered a Success,
                        Improvements Could Be Made In Future Initiatives


                                                                                  Appendix IV

                               Glossary of Terms

Activity Code                   A three-digit numeric code identifying the type and condition of a
                                return selected for audit.
Audit Information Management    A computer system used by the LMSB Division Examination
System                          function and others to control returns, input assessments/
                                adjustments to the Master File, and provide management reports.
                                The Master File is the IRS database that stores various types of
                                taxpayer account information. This database includes individual,
                                business, and employee plans and exempt organizations data.
Coordinated Industry Case       One of the two categories of taxpayers in the LMSB Division,
                                generally involving the nation’s largest taxpayers and usually
                                examined by teams of IRS examiners.
Cycle Time                      The number of months between when a return is filed and when the
                                examination process is completed.
Disposal Code                   A two-digit code used to indicate the disposition of an examination.
Disposal Date                   The date on which a disposal code is entered.
Industry Case                   One of the two categories of taxpayers in the LMSB Division,
                                consisting of all LMSB Division taxpayers not classified as
                                Coordinated Industry Cases and generally assigned to one IRS
                                examiner.
LMSB Workload Identification    An application primarily used by analysts to identify and send
System                          returns to first-line managers.
Pre-Filing Agreement Program    A program designed to resolve potentially contentious tax issues
                                before tax returns are filed.
Revenue Agent                   Employees in the Examination function who conduct face-to-face
                                examinations of more complex tax returns such as businesses,
                                partnerships, corporations, and specialty taxes (e.g., excise tax
                                returns).
Total Cycle Days                The number of days between when a return is filed and when the
                                disposal code is entered.




                                                                                           Page 15
                Although the Large and Mid-Size Business Division’s Currency
                            Initiative Was Considered a Success,
                     Improvements Could Be Made In Future Initiatives


                                                                                          Appendix V

                          Case Analysis Worksheet

The Worksheet below was intended to be used for the risk analysis of all open examinations
during the FY 2004 Currency and Cycle Time Improvement Initiative.




              Source: Memorandum from the LMSB Division Commissioner to LMSB Division
              employees, entitled LMSB FY 2004 Special Initiative to Improve Business Results,
              dated October 9, 2003.


                                                                                                 Page 16
    Although the Large and Mid-Size Business Division’s Currency
                Initiative Was Considered a Success,
         Improvements Could Be Made In Future Initiatives


                                                     Appendix VI

Management’s Response to the Draft Report




                                                            Page 17
Although the Large and Mid-Size Business Division’s Currency
            Initiative Was Considered a Success,
     Improvements Could Be Made In Future Initiatives




                                                        Page 18
Although the Large and Mid-Size Business Division’s Currency
            Initiative Was Considered a Success,
     Improvements Could Be Made In Future Initiatives




                                                        Page 19
Although the Large and Mid-Size Business Division’s Currency
            Initiative Was Considered a Success,
     Improvements Could Be Made In Future Initiatives




                                                        Page 20
Although the Large and Mid-Size Business Division’s Currency
            Initiative Was Considered a Success,
     Improvements Could Be Made In Future Initiatives




                                                        Page 21
Although the Large and Mid-Size Business Division’s Currency
            Initiative Was Considered a Success,
     Improvements Could Be Made In Future Initiatives




                                                        Page 22
